No.

®)

crj (15

(£> (f^t

IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
IMMANUEL F. SANCHEZ,
Petitioner r-

r

/

vs.
■■

;n

I

STATE OF CALIFORNIA, etal.
Respondents.
ON PETITION FOR WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE NINTH CIRCUIT
PETITION FOR WRIT OF CERTIORARI

FILED
NOV 0 h 2020
SUPREMEFCTQURTLU RK

Immanuel F. Sanchez
1345 N. Watland Ave.
Los Angeles, CA 90063

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

1

QUESTIONS PRESENTED...................................................................

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

3

REASONS FOR GRANTING THE WRIT

8

CONCLUSION

40
STATEMENT REGARDING ORAL ARGUMENT

Hearing is required by law in these proceedings. See 28 U.S.C. § 1915(a);
Coppedge v. United States, 369 U.S. 438, 452 (1962) (“We heard oral argument.”).
The government cannot “affirmatively abuse its power” and deny Petitioner his
fundamental right to hearing. “The power vested in a judge is to hear and determine,
not to determine without hearing.” In re Buchman, 123 Cal.App.2d 546, 560 (1954).
INDEX TO APPENDICES
APPENDIX A
Court of Appeals Order Denying Motion to Proceed
In Forma Pauperis and Dismissing Appeal, 2/27/2020
APPENDIX B
District Court Order or Judgement, 11/15/2019
APPENDIX C
Notice of Assignment to United States Judges, 10/22/2019
APPENDIX D
District Court Order Vacating Hearing, 10/28/2019
APPENDIX E
District Court Order Denying Motion to Disqualify
Magistrate Judge and Order to Show Cause, 11/26/2019
APPENDIX F
District Court Order Denying Motion to Vacate Order and
Relief from Illegal and Unconstitutional Proceedings, 12/4/2019

APPENDIX G
District Court Order Imposing Sanctions, 12/20/2019
APPENDIX H
District Court Order Denying Motion for Leave to
Appeal In Forma Pauperis, 1/2/2020
APPENDIX I
Court of Appeals Order Denying Petition for Panel
Rehearing and Suggestion for Rehearing, 9/16/2020

11

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Adams v. Hansen,
906 F.2d 192 (5th Cir. 1990)

19

Audett v. United States,
265 F.2d 837 (9th Cir. 1959)

32

Ayers v. Norris,
43 F.Supp.2d 1039 (E.D.Ark. 1999)

37, 39

Baltimore County v. Hechinger Liquidation Trust,
335 F.3d 243 (3rd Cir. 2003)....................................

33

Behari v. State ofU.P. & Ors.,
11 S.C.R. 337 (2000)........... ,....

29

Boag v. Arizona,
454 U.S. 364 (1982)

19

Boddie v. Connecticut,
401 U.S. 371 (1971)....

22, 27

Bounds v. Smith,
430 U.S. 817 (1977)

23, 24

Boyce’s Executors v. Grundy,
28 U.S. 210 (1830).................

27

Brown v. Plata,
563 U.S. 493 (2011)

14

Cay v. Estelle,
789 F.2d 318 (5th Cir. 1986)

26, 27

Coppedge v. United States,
369 U.S. 438 (1962) ..........

27

Cruz v. Superior Court,
120 Cal.App. 175 (2004)

26

111

TABLE OF AUTHORITIES CITED
(Continued)
CASES

PAGE NUMBER

Denton v. Hernandez,
504 U.S. 25 (1992).....

19, 37

De Young v. Evander,
890 F.Supp. 949 (D.Kan. 1995)

33

Ellis v. City of Grand Rapids,
257 F.Supp. 564 (W.D.Mich. 1966)

12

Ex parte Young,
209 U.S. 123 (1908)

38

Fuentes v. Shevin,
407 U.S. 67 (1971)

26

Goldberg v. Kelly,
397 U.S. 254 (1970)

13

Gomez v. Toledo,
446 U.S. 635 (1980)

33

Gonzalez v. City of Chicago,
888 F.Supp. 887 (N.D.I11 1995)

33

Greenbriar Village, L.L. C. v. Mountain Brook City,
343 F.3d 1258 (llth Cir. 2003)..................................

10

Griswold v. Connecticut,
381 U.S. 479 (1965).......

13

Haines v. Kerner,
404 U.S. 519 (1972)

19

Harmon v. Superior Court,
307 F.2d 796 (9th Cir. 1962)..

21, 27, 40

Henriksen v. Bentley,
644 F.2d 852 (10th Cir. 1981)

33

IV

TABLE OF AUTHORITIES CITED
(Continued)
CASES

PAGE NUMBER

Howard v. Grinage,
82 F.3d 1343 (6th Cir. 1996)

10

In re Buchman,
123 Cal.App.2d 546 (1954)

26

In re Inquiry Concerning a Judge, Gridley,
417 So.2d 950 (1982).......................................

33

In re Marriage ofReese,
73 Cal.App.3d 120 (1977)

21

In re Murchison,
349 U.S. 133 (1955)

34

In re Richard W.,
91 Cal.App.3d 960 (1979)

34

Jones v. Clinton,
974 F. Supp. 712 (E.D. Ark. 1997)

33

Jones v. Zimmerman,
752 F.2d 76 (3rd Cir. 1985)

22

Jordan v. Massachusetts,
225 U.S. 167 (1912).........
Kontrick v. Ryan,
540 U.S. 443 (2004)
Memorial Hospital v. Maricopa County,
415 U.S. 250 (1974)............. .....................

7

39

16, 18

Merill v. Addison,
763 F.2d 80 (2nd Cir. 1985)

20

McCormick v. United States,
500 U.S. 257 (1991) ..............

35

TABLE OF AUTHORITIES CITED
(Continued)
CASES

PAGE NUMBER

Morrison v. Lipscomb,
877 F.2d 463 (6th Cir. 1989)

32

Nietzke v. Williams,
490 U.S. 319 (1989).

19

Paulson v. Evander,
633 So.2d 540 (1994)

33

Pleasant'El v. Oil Recovery Co.,
148 F.3d 1300 (llth Cir. 1998)).

21

Pollard v. United States,
352 U.S. 354 (1957)........

1

Potter v. McCall,
433 F.2d 1087 (9th Cir. 1970)

21

Rose v. Superior Court,
81 Cal.App.4th 564 (2000)

34

Sanchez v. California,
Cal.Dist. No. 2:i8-cv06107-R (AFM), 9th Cir. No. 18-56153

28

Sanchez v. Real,
Cal.Dist. No. 2:i9-cv06015-MWF-RAO, 9th Cir. No. 19-56097

28

Scott v. Sandford,
60 U.S. 393 (1857)

38

Shapiro v. Thompson,
394 U.S. 618 (1969)...

2, 16

Souder v. McGuire,
516 F.2d 82 (3rd Cir. 1975)

22

Spears v. McCotter,
766 F.2d 179 (5th Cir. 1985)

26

VI

TABLE OF AUTHORITIES CITED
(Continued)
CASES

PAGE NUMBER

Tanner v. United States,
107 S.Ct. 2739 (1987)....

7

United States v. Bosch,
951 F.2d 1546 (9th Cir. 1991)

32

United States v. Sciuto,
531 F.2d 842 (7th Cir. 1976)

34

United States v. Thompson,
483 F.2d 527 (3rd Cir. 1973)

34

Wallach v. Liberman,
366 F.2d 254 (2nd Cir. 1966)

20

Wells v. United States,
318 U.S. 257 (1943)....

1

Wisconsin Dep’t. of Corrections v. Schacht,
524 U.S. 381 (1998)......................................

34

STATUTES AND RULES

18 U.S.C. § 1343

3

18 U.S.C. § 1951

35

18 U.S.C. § 1951

35

18 U.S.C. § 1964(c)

3

28 U.S.C. § 454

3, 32

28 U.S.C. § 955

3, 32

28 U. S. C. § 1254(1)

1

28 U.S.C. § 1291

3
Vll

TABLE OF AUTHORITIES CITED
(Continued)
STATUTES AND RULES

PAGE NUMBER

28 U.S.C. § 1331

3, 39

28 U.S.C. § 1343(a)

3,39

28 U.S.C. § 1367(a)

3, 39

28 U.S.C. § 1391

3, 39

28 U.S.C. § 1915.... 2, 20, 21, 22, 23, 24, 25, 26, 27, 30, 31, 32, 33, 34, 35, 36, 37, 38,
39, 40
28 U.S.C. § 2201

3

28 U.S.C. § 2202

3
20

28 U.S.C. § 2403(a)
42 U.S.C. § 1981

3

42 U.S.C. § 1983

3, 10, 15, 21, 23, 29, 30

42 U.S.C. § 1985

3, 15, 16

18 U.S.C. § 1951

3

Supreme Court Rule 29.4(b)

20

Fed. R. Civ. P. 12(b)

30, 39

Cal. Gov. Code, § 68632(a)(4)

3, 22

CONSTITUTIONAL PROVISIONS
U.S. CONST. Preamble

3, 12, 13

U.S. CONST. Preamble

3, 12, 13

U.S. CONST, art. Ill, § 2

1, 3, 39
viii

TABLE OF AUTHORITIES CITED
(Continued)
CONSTITUTIONAL PROVISIONS

PAGE NUMBER

U.S. CONST, art. VI, cl. 2

3, 12

U.S. CONST, amend. I

3, 12, 23, 24, 25
12

U.S. CONST, amend. IV
U.S. CONST, amend. V

12, 25, 26, 27, 32, 35, 36, 37
12

U.S. CONST, amend. VIII
U.S. CONST, amend. IX

3, 13, 37

U.S. CONST, amend. XI

38

U.S. CONST, amend. XIII

3, 23, 38

U.S. CONST, amend. XIV, § 1

1, 3, 8, 11, 12, 15, 23

OTHER LEGAL AUTHORITIES
The Redhook, A Manuel On Legal Style 4th ed., by Bryan A. Garber,
Editor in Chief, Black’s Law Die., The acknowledged authority for
legal writers............................................................................................

7

The United Nations Charter

11

The Universal Declaration of Human Rights (1948), art. 25

11

The International Covenant on Civil and Political Rights

11

The International Covenant on Economic, Social and Cultural Rights (1966),
art. 12......................................................................................................................

11

Declaration ofIndependence (US 1776)

12, 31, 37

State of the Union Message to Congress, Presidential Library and Museum,
January 11, 1944.................................................................................................

ix

14

TABLE OF AUTHORITIES CITED
(Continued)
PAGE NUMBER

OTHER LEGAL AUTHORITIES
U.S. Code Congressional and Administrative News,
No. 1, Feb. 5, 1965.......................................................

14

Medicare for All Act of 2017

15

Magna Carta (1215)

31

Fraus legibus invisissima, “Fraud is most hateful to law”

27

Fraus est jus nunquam cohabitant,
“Fraud and justice never dwell together”

29

Fraus est celare fraudem, “It is a fraud to conceal a fraud”

30

Qui fraudem fit frustra agit, “He who commits fraud, acts in vain”

30

Lex injusta non est lex, “An unjust law is not law”

30

J. Locke, The Second Treatise of Civil Government,
Chap. X, § 136 (T. Cook ed. 1947) (6th ed. 1764).....

30

Bias Against Pro Per Litigants/ What It Is. How to Stop It.,
by Stephen Elias (April 4, 1997) Nolo Press..........................

35

Ann. Rept. (2003) Advisory Letter 12, p. 27

35

Ann. Rept. (2005) Advisory Letter 1, p. 26

35

Misera est servitus ubijust est vagum aot incertum,
“It is misery slavery where the law is vague or uncertain”

38

X

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR A WRIT OF CERTIORARI
Petitioner respectfully requests that a writ of certiorari issue to review
the judgment below.
OPINIONS BELOW
The opinion of the United States court of appeals appears at Appendix
A to the petition and is unpublished. The opinion of the United States district
court appears at Appendix B to the petition and is unpublished.
JURISDICTION
The jurisdiction of this Court is invoked under U.S. CONST, art. Ill, §
2 and 28 U. S. C. § 1254(l). Petitioner has a constitutional and statuary right
to a hearing on the merits of a claim over which the Court has jurisdiction.
“The petition for certiorari, pro se, sought reversal of the order of the Court of
Appeals denying petitioner’s motion for appeal in forma pauperis. ... Such an
order is reviewable on certiorari.” Pollard v. United States, 352 U.S. 354, 359
(1957) (quoting Wells v. United States, 318 U.S. 257 (1943)).
QUESTIONS PRESENTED
I.

Whether a State that denies public health, medical care, and

social services to a particular Citizen without affording him the opportunity
to appeal the State’s action denies the Citizen procedural and substantive
due process in violation of the Fourteenth Amendment Due Process Clause.

1

II.

Whether this denial of public health, medical care, and social

services is repugnant to the Equal Protection Clause as applied by this Court
in Shapiro v. Thompson, 394 U.S. 618 (1969).
III.

Whether the dismissal of Petitioner’s in forma pauperis

complaint was an abuse of discretion.
IV.

Whether the in forma pauperis statute, 28 U.S.C. § 1915 is

“DEMONSTRABLY’ unconstitutional in part, on its face and as applied to
Petitioner.
LIST OF PARTIES
All parties do not appear in the caption of the case on the cover page. A
list of all parties to the proceeding in the Court whose judgment is the subject
of this petition is as follows^ State of California, County of Los Angeles,
Department of Social Services, Director William Lightbourne (as an
individual and in his official capacity), Case Worker Donovan Sithan (as an
individual and in his official capacity), Case Worker Arthur Daniels (as an
individual and in his official capacity! El Monte Comprehensive Health
Center, Dentist Donna Raja (as an individual and in her official capacity),
Dentist Leandro S. Area (as an individual and in his official capacity), Dentist
Jonathan Y. Hsu (as an individual and in his official capacity); West Coast
Dental Services, Dentist Julio Iniquez (as an individual and in his official
capacity); Los Angeles County+USC Medical Center, Doctor Richard Bracken
(as an individual and in his official capacity), Dentist Armen Pezeshkian (as

2

an individual and in his official capacity); Herman Ostrow School of Dentistry
of University of Southern California, Dentist Talley Marlene (as an
individual and in her official capacity); Clinic Msr. Oscar A. Romero, Dentist
Maria Marzan Marlene (as an individual and in her official capacity); and
Wilshire Center Dental Group, Dentist Gregory Kaplan (as an individual and
in his official capacity).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Preamble, Article III, Article VI, and the First, Ninth, Eleventh,
Thirteenth, and Fourteenth Amendments to the Constitution of the United
States of America are involved.
The statutes involved are: (i) Sections 1981(a), 1983, and 1985(3), Title
42, United States Code; (ii) Sections 1951 and 1964(c), Title 18 United States
Code; (iii) Sections 454, 955, 1291, 1331, 1343(a)(l)(3), 1367(a), 1391(b), 1915,
2201, 2202, and 2403(a), Title 28, United States Code; and (iv) Subsection
(a)(4), Section 68632, California Government Code.
STATEMENT OF THE CASE
On October 22, 2019, pro se Petitioner commenced a civil action in the
United States District Court for the Central District of California pursuant to
the Civil Rights Acts, 42 U.S.C. §§ 1981, 1983, 1985(3), and the Racketeer
Influenced and Corrupt Organizations Act (“RICO”), 18 U.S.C. § 1964(c),
against the Respondents alleging intentional fraud, bad faith, gross
negligence and deliberate indifference, conspiracy to violate and violation of

3

civil rights, violation of procedural and substantive due process of law,
violation of equal protection, and conspiracy to violate and violation of the
RICO Act.
Briefly stated, the complaint alleged that the California State and Los
Angeles County officials administering the MedrCal program denied aid
without affording Petitioner a hearing with the Department of Social Services
before an independent state hearing officer at which the applicant may
appear personally, offer oral evidence, confront and cross-examine witnesses
against him, and have a record made of the hearing.
Moreover, clerk of the court Kiry K. Gray provided to the public,
including Petitioner, with the Instructional Guide and Forms for Submitting
Motions, but prepared and provided him with a different form for filing a
motion to commence suit in forma pauperis (“IFP”) that excludes the
courtroom, time, and judge filler space. See Form CV-60. Petitioner did not
use Form CV-60, instead, he prepared a “MOTION to Commence Suit In
Forma Pauperis” and deputy clerk Chris Sawyer filed the “MOTION” along
with the “COMPLAINT FOR VIOLATIONS OF THE CIVIL RIGHTS ACT” in
the Court but failed and refused to permit issuance and service of process of
the “COMPLAINT” and summons after Petitioner requested service.
Thereafter, deputy clerk Estrella Tamayo in secret, one-sided
determination, or without notice or a hearing assigned two (2) different Court
judges to hear Petitioner’s case, with two (2) different courtrooms, and two (2)

4

different calendars contrary to the self-calendaring procedures of the District
Court’s website of either judge as only one (l) judge in (l) court with one (l)
calendar is required for hearing. Said deputy clerk assigned the case to the
calendars of district court judge John F. Walter and magistrate judge Alka
Sagar and a copy of the “NOTICE OF ASSIGNMENT” appears at Appendix C.
On October 28, 2019, in secret, one-sided determination, or without
notice or a hearing, district court judge John F. Walter filed with the Court
an “Order vacating hearing” and a copy of the order appears at Appendix D.
On November 12, 2019, Petitioner filed with the Court a “MOTION to
Disqualify the Magistrate Judge.”
On November 15, 2019, in secret, one-sided determination, or without
notice or a hearing, magistrate judge Alexander F. MacKinnon filed with the
Court a Recommendation that Petitioner be denied IFP status and that
proceedings be terminated and a copy of the “RECOMMENDED” disposition
appears at Appendix B. In filing the Recommendation, that Petitioner’s
“MOTION to Commence Suit In Forma Pauperis,” be denied, the magistrate
judge did not file any proposed findings of fact and did not serve or mail a
copy of the recommended disposition to Petitioner. Magistrate judge
Alexander F. MacKinnon neither held a hearing nor reviewed the actual
evidence attached to the “COMPLAINT.” Immediately thereafter, district
court judge Otis D. Wright, II received and accepted the unserved and
unfounded

Recommendation

and

denied

5

Petitioner

IFP

status

and

immediately dismissed his case by a summary order before process issued
and a copy of the “ORDER (l) DENYING REQUEST TO PROCEED IN
FORMA PAUPERIS AND (2) DISMISSING COMPLAINT FOR LACK OF
SUBJECT MATTER JURISDICTION” appears at Appendix B.
On November 26, 2019, in secret, one-sided determination, or without
notice or a hearing, district court judge Otis D. Wright, II filed with the Court
an “ORDER DENYING ... MOTION FOR RECUSAL OF ... MAGISTRATE
JUDGE” and a copy of the denial order appears at Appendix E. Immediately
thereafter, the said judge filed an “ORDER TO SHOW CAUSE WHY
SANCTIONS SHOULD NOT BE IMPOSED AGAINST PLAINTIFF’ solely
because Petitioner filed the “MOTION to Disqualify the Magistrate Judge,”
and a copy of the order to show cause appears at Appendix E.
On November 27, 2019, Petitioner filed with the Court a “MOTION TO
VACATE THE ORDER DENYING HEARING AND OBTAIN RELIEF FROM
ILLEGAL AND UNCONSTITUTIONAL PROCEEDINGS.”
On December 4, 2019, in secret, one-sided determination, or without
notice or a hearing, district court judge Otis D. Wright, II filed with the Court
an “ORDER DENYING PLAINTIFFS MOTION TO VACATE THE ORDER”
and a copy of the denial order appears at Appendix F.
On December 20, 2019, the sanction was imposed despite Petitioner’s
“RESPONSE to Order” to Show Cause and “REQUEST FOR JUDICIAL
NOTICE in Support” thereof filed on December 16, 2019, showing that an

6

“ellipses are perfectly respectable for legal writers, and don’t raise suspicions
that the writer has tampered with the meaning. In fact their very presence
bespeaks care.” See The Redhook, A Manuel On Legal Style 4th ed., by Bryan
A. Garber, Editor in Chief, Black’s Law Die., The acknowledged authority for
legal writers. A copy of the “MINUTES” appears at Appendix G.1
In addition, Petitioner filed with the Court a “NOTICE OF APPEAL”
from the “ORDER (l) DENYING REQUEST TO PROCEED IN FORMA
PAUPERIS AND (2) DISMISSING COMPLAINT FOR LACK OF SUBJECT
MATTER JURISDICTION.” At the same time, Petitioner filed a “MOTION
[to] Proceed on Appeal In Forma Pauperis.”
On January 2, 2020, in secret, one-sided determination, or without
notice or a hearing, district court judge Otis D. Wright, II filed with the Court
an order denying Petitioner’s “MOTION [to] Proceed on Appeal In Forma
Pauperis” and a copy of the denial “ORDER” appears at Appendix H.
On January 31, 2020, Petitioner filed with the Court of Appeals a
“Response to Motion or Court Order,” “Motion and Affidavit for Permission to
Proceed In Forma Pauperis,” and “STATEMENT THAT APPEAL SHOULD
GO FORWARD.”
1 Suffice to say that Petitioner claimed that district court judge Otis D. Wright, II
appeared to be to old and mentally incompetent, exhibiting signs of disability. Judge Wright
stared off into the courtroom. His mental faculties appeared to be impaired to the point that
he either cannot understand the proceedings before him or he is far gone that he is allowing
an assistant to do his thinking for him. Judge Wright is a crazy, deranged, and mentally
incompetent old man. These claims are not in any way, shape, or form conduct that is
“verbally abusive.” Petitioner has a fundamental constitutional “right to a tribunal both
impartial and mentally competent to afford hearing.” Jordan v. Massachusetts, 225 U.S. 167,
176 (1912), Tanner v. United States, 107 S.Ct. 2739 (1987).
7

On February 27, 2020, in secret, one-sided determination, or without
notice or a hearing, circuit judges William C. Canby, Ronald M. Gould, and
Paul J. Watford filed an order denying Petitioner’s “Motion and Affidavit for
Permission to Proceed In Forma Pauperis,” and dismissing the appeal and a
copy of the denial or dismissal “ORDER” appears at Appendix A.
A timely petition for rehearing was denied by the United States Court
of Appeals on September 16, 2020 and a copy of the order denying rehearing
appears at Appendix I.
REASONS FOR GRANTING THE PETITION
State’s action denying public health, medical care, and social
I.
services violates procedural and substantive due process in violation of the
Fourteenth Amendment Due Process Clause.
(a)

Deprivation of “Procedural” Due Process

Petitioner’s “COMPLAINT” specifically alleged that: “The Fourteenth
Amendment of the United States Constitution commands that “No State
shall... deprive any person of life, liberty, or property, without due process of
law.” U.S. CONST, amend. XIV, § 1. In defiance of federal law, the California
State intentionally deprived Plaintiff of life, liberty, and property, without
due process of law.
To begin, without health one cannot have “enjoyment of life,” one will
only suffer physical pain, emotional trauma, and mental anguish due to one’s
ongoing health injury. The California State’s actions, decisions, practices,
policies, laws, statutes, ordinances, regulations, customs, and usages to

8

prevent remedy to a Citizen’s serious medical problem violates Plaintiffs
right to “life.”
Next, the term “liberty” as used in the “due process” clause denotes not
only the right of the Citizen to be free from the mere physical restraint of his
person, as by incarceration, but the term is deemed to embrace the right of
the Citizen to be free from the infliction of unnecessary pain; to be free in the
enjoyment of good health; to use all his faculties; to live in a state of complete
physical, mental, and social well-being and not merely the absence of disease
or infirmity! to be free to use his powers of mind and body in any lawful
calling; to acquire and possess useful knowledge and property! to pursue any
avocation or profession! to worship God according to dictates of his own
conscience, and generally to enjoy those privileges long recognized at common
law as essential to the orderly pursuit of happiness by free men. Stated
differently, “liberty” safeguarded by the “due process” clause is liberty in a
social organization which requires the protection of law against the evils
which menace the health, safety, morals, and welfare of the people.
Lastly, Medi-Cal benefits are protectable “property interest” under the
“due process” clause. Here, Plaintiff was falsely deprived of use of state
monies for necessary health treatments causing him immediate and
irreparable damage to his health. Those health treatments and the state
funds to pay for health care, are constitutionally protected property interest
and they have been infringed, abridged, and violated by the California State.

9

This deprivation of Plaintiffs constitutionally protected interests in
“life, liberty, or property” without notice or a hearing or any process of law
“shocks the conscious” and constitutes a violation ... of Plaintiffs Fourteenth
Amendment right to procedural due process of law. The violation of this
constitutional provision is also a violation of 42 U.S.C. § 1983.
(b)

Deprivation of “Substantive” Due Process

Petitioner further alleged that: “[T]he Due Process Clause ... was
intended to prevent government ‘from abusing its power, or employing it as
an instrument of oppression,’ ‘to secure the individual from the arbitrary
exercise of the powers of government,’ ‘to prevent governmental power from
being used for purposes of oppression,’ and to prevent ‘affirmative abuse of
power.’” DeShaney v. Winnebago County Department of Social Services, 489
U.S. 189, 196 (1989).” Substantive due process prevents government from
oppressing Petitioner by arbitrarily depriving him of a fundamental right.
See Howard v. Grinage, 82 F.3d 1343, 1349 (6th Cir. 1996).
The California State willfully oppressed Petitioner by arbitrarily
depriving him of his fundamental constitutional right to health care.
“Fundamental rights,” of kind protected by substantive component of Due
Process Clause, are those rights created by the Constitution. See Greenbriar
Village, L.L.C. v. Mountain Brook, City, 343 F.3d 1258, 1262 (llth Cir. 2003).
Petitioner was arbitrarily deprived of his fundamental right created by
the Constitution of the United States of America for the purpose of willful

10

oppression in violation of his Fourteenth Amendment substantive due process
right not to be subjected to oppressive action by the government.
Petitioner’s fundamental right to health care is guaranteed to him and
protected by the Constitution, laws, and treaties of the United States of
America. 2 The right to public health, medical care, and social services is

2 The United Nations Charter, a treaty ratified by the United States of America, is
part of the supreme law of this land. Article 25 of the United Nations’ Universal Declaration
of Human Rights (1948) states that: “Everyone has the right to a standard of living adequate
for the health and well-being of himself, including ... medical care and necessary social
services.” While not a treaty itself, the Declaration was explicitly adopted for the purpose of
defining the meaning of the words “fundamental freedoms” and “human rights” appearing in
the United Nations Charter, which is binding on all member states. The 1968 United
Nations International Conference on Human Rights advised that the Declaration
“constitutes an obligation for the members of the international community” to all persons.
The Declaration has served as the foundation for two binding UN human rights
covenants: the International Covenant on Civil and Political Rights and the International
Covenant on Economic, Social and Cultural Rights. Under Art. 12 of the 1966 International
Covenant on Economic, Social and Cultural Rights, the “States Parties to the present
covenant recognize the right of everyone to the enjoyment of the highest attainable standard
of physical and mental health.” Of consequence, Plaintiff is entitled to assert the rights
under the treaty since the actions, decisions, practices, policies, laws, statutes, regulations,
customs, and usages of the California State are contrary to the international agreement and
treaty made under the authority of the United States of America.
In fact, the California State denied Petitioner necessary health or medical care and
social services in violation of his human right to health care secured to him and protected by
the treaties of the United States of America. The treaty constitutes the supreme law of the
land and not the actions, decisions, practices, policies, laws, statutes, regulations, customs,
and usages of the California State. The treaty overrides the power of the State of California.
In fact, the treaty has supremacy over the California State constitution and laws because the
treaty is superior. It is the declared will of the people of the United States of America that
every treaty made by the authority of the United States of America shall be superior to the
constitution and laws of any individual state.
Fundamental principle of supremacy of law, that crux of constitutional government,
requires that all public officials obey mandates of Constitution and valid treaties made under
the authority of the United States of America. The California State may not make and
enforce actions, decisions, practices, policies, laws, statutes, ordinances, regulations, customs,
and usages that are contrary to federal law. The California State has an obligation, under
the supremacy clause, to protect federally guaranteed civil and human rights as zealously as
would federal authorities of the United States of America. The right of the people to be
secure, safe, and healthy in their persons, shall not be violated. If the people have health or
medical needs which are not being met, it is society’s responsibility to meet them. This is the
“supreme Law of the Land” and cannot be curtailed and circumvented by the California State.
11

rooted in Amendments 1, 4, 5, 8, 9, 13 and 14, along with penumbras of
express provisions, and the Declaration of Independence.
“The Declaration of the Continental Congress concisely articulates that
the inalienable rights of man come from the hand of their Creator, and not as
a gift from a benign government. Thomas Jefferson included the health of a
free people as a specific right in ‘our pursuit of happiness.’ ... The health of
the people was in the minds of our forefathers when they wrote the Preamble
of the Constitution of the United States: ‘We the People of the United States,
in Order to form a more perfect Union,

k k k

promote the general Welfare

* k

*.’ ... ‘ The health of free people is forever present in the minds of free men.”
Ellis v. City of Grand Rapids, 257 F.Supp. 564, 572 (1966) (Emphasis added).
“From its foundation the Nation’s basic commitment has been to foster
the dignity and well-being of all persons within its borders. We have come to
recognize that forces not within the control of the poor contribute to their
poverty. This perception, against the background of our traditions, has
significantly influenced the development of the contemporary public
assistance system. Welfare, by meeting the basic demands of subsistence, can
help bring within the reach of the poor the same opportunities that are
available to others to participate meaningfully in the life of the community.
At the same time, welfare guards against the societal malaise that may flow
The actions, decisions, practices, policies, laws, statutes, ordinances, regulations, customs,
and usages of the California State denying Petitioner necessary medical care and social
services must yield to the treaty as they are inconsistent with and impair the policy and
provisions of the treaty in violation of the “supreme Law of the Land” clause of Article VI of
the Constitution of the United States of America.
12

from a widespread sense of unjustified frustration and insecurity. Public
assistance, then, is not mere charity, but a means to ‘promote the general
Welfare, and secure the Blessings of Liberty to ourselves and our Posterity.
Goldberg v. telly, 397 U.S. 254, 264-65 (1970).
The Preamble of the Bill of Rights of the United States of America
provides “in order to prevent misconstruction or abuse of its power, that
further declaratory and restrictive clauses should be added.” Although the
right to health care is not specifically enumerated in the Constitution of the
United States of America, such right exists as other rights retained by the
people under the Ninth Amendment to the Constitution. The Ninth
Amendment provides, “The enumeration in the Constitution of certain rights
shall not be construed to deny or disparage others retained by the people.”
See U.S. CONST, amend. IX.3 In fact, Petitioner’s fundamental personal
right to health care is implicitly guaranteed to him and protected by the
Ninth Amendment because such right to health care is not set forth in the
Constitution. Rather than enunciating a particular affirmative right, the
Ninth Amendment servers to protect other fundamental rights that are not
set forth in the Constitution of the United States of America.
The fundamental right to health care is deeply rooted in this Nation’s
history and tradition, and in the conscience of the good decent American
3 The fundamental personal right to privacy is not explicitly mentioned in the Bill of
Rights, but such right exists as other rights retained hy the people under U.S. CONST,
amend. IX. See Griswold v. Connecticut, 381 U.S. 479 (1965). And any state law, regulation,
statute, policy, custom, and usage of the State that denies or abridges the rights retained by
the people under U.S. CONST, amend. IX is invalid and void. Id.
13

people, and such right is implicit in the concept of ordered liberty, such that
neither life, liberty, nor property would exist if health was sacrificed.
In January 11, 1944, United States President Frank Delano Roosevelt
crafted his “Second Bill of Rights.” He declared ‘freedom of want’ to be one of
four essential liberties for human security. His definition of freedom included,
“the right to adequate medical care and the opportunity to achieve and enjoy
good health.” State of the Union Message to Congress, Presidential Library
and Museum.
In January 7, 1965, President Lyndon B. Johnson in a special message
to Congress proclaimed: “Our first concern must be to assure that the
advance of medical knowledge leaves none behind. We can— and we must —
strive now to assure the availability of and accessibility to the best health
care for all Americans, regardless of age or geography or economic status.”
U.S. Code Congressional and Administrative News, No. 1, Feb. 5, 1965, at 1314, 16, 21.
In 1989, the largest American health care organization, the American
Medical Association, scribed a document on “Patient’s Bill of Rights” that
includes a statement that patients have a “right to essential health care.”
In Brown v. Plata, 563 U.S. 493, 510-11 (2011), Justice Kennedy
declared, that indigent American Citizens “retain the essence of human
dignity inherent in all persons,” and human dignity includes the right to
health care.

14

In February 17, 2012, a legislator from the State of New Mexico, stated
in an editorial, “Health care is a fundamental right that is an essential
safeguard of human life and dignity.”
In September 13, 2017, United States Senator Bernie Sanders and 15
Senate co-sponsors prepared and submitted the Medicare for All Act of 2017,
S. 1804-115th Congress (2017-2018), which states^ “Every individual who is a
resident of the United States is entitled to benefits for health care services. ...
The beneficiary has the right to have services provided by health providers
for whom payment would be made under this Act.”
Petitioner’s right to health care is recognized by the Ninth Amendment
of the Constitution of the United States of America as it is recognized by
teachings of history and basic values that underlie the American society and
is encompassed within the “due process of law” clause of the Fourteenth
Amendment and it is thus fully applicable against the California State under
42 U.S.C. §§ 1983, 1985(3).4

4 The pertinent part of Section 1 of the Fourteenth Amendment provides “No State
shall make or enforce any law which shall abridge the privileges or immunities of citizens of
the United States; nor shall any State deprive any person of life, liberty, or property, without
due process of law; nor deny to any person within its jurisdiction the equal protection of the
laws.” And section 5 expressly empowers Congress to enforce by appropriate legislation the
provisions of the article. 42 U.S.C. § 1983, provides in presently pertinent part that “every
person who, under color of any statute, ordinance, regulation, custom, or usage, of any
State, ... subjects, or causes to be subjected, any citizen of the United States to the
deprivation of any rights, privileges, or immunities secured by the Constitution and laws,
shall be liable to the party injured in an action at law.” And 42 U.S.C. § 1985(3), provides
among other things that “if two or more persons in any State conspire for the purpose of
depriving, either directly or indirectly, any person or class of persons of the equal protection
of the laws, and if one or more persons engaged therein do, or cause to be done, any act in
furtherance of the object of such conspiracy, whereby another is injured in his person or
property, or deprived of having and exercising any right and privilege of a citizen of the
United States, the party so injured or deprived may have an action for the recovery of
15

II.
State’s action denying public health, medical care, and social
services is repugnant to the Equal Protection Clause as applied by this Court
in Shapiro v. Thompson, 394 U.S. 618 (1969).
Petitioner is an indigent suffering a dental and health injury and the
California State and Los Angeles County and its medical facilities
intentionally denied him necessary health or medical care pursuant to official
policies.
Under the law, “the individual county governments are charged with
the mandatory duty of providing necessary hospital and medical care for
their indigent.” Memorial Hospital v. Maricopa County, 415 U.S. 250, 252
(1974). But the California State policy requires an indigent to pay money for
medical care and services, money that he does not have because he is
destitute.

damages occasioned by such injury or deprivation, against any one or more of the
conspirators.”
The right to the enjoyment of life, liberty, and property does not find its source in U.S.
Const. Amend. XIV, § 1. That constitutional provision was not designed to create or vest
rights of that nature. It was intended to safeguard and protect the individual against
deprivation of such rights under color of State authority, without due process and equal
protection. But § 1983 does not undertake merely to protect rights and privileges derived
from the Constitution of the United States of America. It makes unlawful the willful
deprivation under color of State authority of any right, privilege, or immunity secured or
protected by the Constitution. It brings within its ambit the willful deprivation under color of
State authority of any right, privilege, or immunity which is guaranteed by the Constitution.
It does not include wrongful acts of officers of the state or county solely in their personal
pursuits. But it does bring within its ambit any willful deprivation under color of State
authority of any right, privilege, or immunity which is guaranteed by the Constitution of the
United States of America. And the denial of necessary health care or the cruel and unusual
treatment of indigent Citizens by state and county officials, not in their personal pursuits but
under color of official authority solely for the purpose of destroying his dental and general
health, constitutes deprivation of rights, privileges, and immunities guaranteed by the
Constitution, laws, and treaties of the United States of America. Accordingly, the defendants,
and each of them, are liable to Plaintiffs for damages caused by such deprivation or injury
under § 1983, and he may recover monetary damages under § 1983 and § 1985(3).
16

The Respondents refused to admit Petitioner to its public hospital,
clinic, or medical facility solely because he is indigent. There is no health or
medical care for the indigent in the California State and Los Angeles County.
This requirement for providing medical care to indigents violates the Equal
Protection Clause. The large money payment requirements for providing
medical care to indigents created two classes of needy residents
indistinguishable from each other except that one is composed of residents
who can and have paid money for medical care and second class of residents
who cannot afford to pay for medical care. On the basis of this sole difference
the first class was granted medical care and second class was denied medical
care upon which may depend the ability to obtain the very means to subsist.
This classification impinges on Petitioner’s constitutionally guaranteed
and protected right to be free from slavery or involuntary servitude and
operates to penalize those persons who exercised their constitutional right of
health care. The California State policy is unconstitutional and invalid. The
policy penalizes Petitioner for his indigency and medical need. What would be
unconstitutional if done directly by the California State can no more readily
be accomplished by a county at State’s direction. The policy impinges on
Petitioner’s fundamental constitutional right to be free from slavery or
involuntary servitude. The policy is a penalty upon the exercise of the
constitutional right of health care. The denial of medical or health care is
done intentionally to coerce or force indigents to work or labor for oppressive

17

hours, salary, working conditions, or treatment in order to pay money for the
necessary health or medical care, enslaving the residents of the California
territory.
The

denial of the basic “necessities

of life,”

a fundamental

constitutional right is a penalty. “[M]edical care is ... ‘a basic necessity of life’
to an indigent. ... It would be odd ... to ... deny him the medical care
necessary to relieve him from the [pain] that attend his [medical condition].”
Memorial Hospital v. Maricopa County, 415 U.S. at 259-60. Petitioner is an
indigent Citizen who required continued medical care for the preservation of
his dental and general health and well being, even if he did not require
immediate emergency care.
The State could not deny an indigent Citizen care just because,
although in a lot of pain, he was not in immediate danger of life. To allow a
serious medical condition, to go untreated is to subject the sufferer to the
danger of substantial and irrevocable deterioration in his health. Medical
conditions, if untreated become all but irreversible paths to pain, disability,
and even loss of life. The denial of medical care is all the more cruel in this
context, falling as it does on indigents who are often without the means to
obtain alternative treatment.
The right of health care must be seen as insuring all residents the
same right to health care in the States to which they reside as are enjoyed by
other residents. The State of California’s requirement for medical care

18

penalizes indigents for exercising their right to health care. Accordingly, the
classification created by the financial requirement is unconstitutional. Id., at
261-62.
III. The dismissal of Petitioner’s in forma pauperis complaint was
an absolute abuse of discretion giving right to certiorari review
“Construing petitioner’s ... pleading liberally, as Haines v. Kerner, 404
U.S. 519 (1972), instructs the federal courts to do so in pro se actions, it
states a cause of action. ... [T]he Court of Appeals or the District Court; both
courts relied solely upon erroneous legal grounds for dismissing the
complaint.” Boag v. Arizona, 454 U.S. 364, 365 (1982).
In Nietzke v. Williams, 490 U.S. 319, 327 (1989), it was held, “a court
may dismiss a claim as factually frivolous only if the facts alleged are ‘clearly
baseless.’ ” Denton v. Hernandez, 504 U.S. 25, 32 (1992) (Emphasis mine).
Under the “clearly baseless” guidepost Petitioner’s “COMPLAINT” cannot be
dismissed because the factual allegations are supported, substantiated, and
corroborated by real and undeniable documentary and testimonial evidence.
The dismissal was clearly erroneous and an absolute abuse of discretion.
Additionally, “[t]he district court’s equating failure to state a claim
with frivolousness was error.” Adams v. Hansen, 906 F.2d 192, 193 (5th Cir.
1990); Nietzke v. Williams, 490 U.S. at 322. The district court committed
abuse of discretion when it made this error.
Evidently, the dismissal of both courts was “clearly erroneous” under

19

Boag, Nietzke, Denton, and Adams. The dismissal was the result of extreme
bias against Petitioner and constitutes an absolute abuse of discretion.
The dismissal of both courts displayed a deep-seated antagonism,
animosity, or antipathy towards Petitioner evidencing extreme bias. The
judicial rulings are egregiously erroneous and demonstrated that both courts
intentionally committed

fraud

and malfeasance,

violated

Petitioner’s

fundamental constitutional rights to proceed in forma paueris and to due
process of law, and disregarded the law. Both courts acted beyond their
lawful authority with knowledge that its actions were beyond its authority
and with conscious disregard for the limits of its authority. The actions of
both courts were part of a pattern of failing to ensure the fundamental rights
of pro se litigants appearing in forma pauperis and constitute an absolute
abuse of discretion giving right to certiorari review.
Indeed, notifications required by Rule 29.4(b) have been made. On
October 22, 2019, Petitioner filed a notice of constitutional challenge to
federal statute pursuant to 28 U.S.C. § 2403(a) bringing into question the
constitutionality of the IFP statute, 28 U.S.C. § 1915(e)(2), the very statute
the judicial officers are attempting to enforce, and both courts ignored their
mandatory duty to certify such fact to the Attorney General. Wallach v.
Lieberman, 366 F.2d 254, 258 (2nd Cir. 1966) (“certification is mandatory.”);
Merill v. Addison, 763 F.2d 80, 82 (2nd Cir. 1985) (“the obligation to certify
rests with the court, not with the parties. ... [T]he notice [is] not ...

20

discretionary. ... Certification is thus a duty of the court that should not be
ignored.”) (Emphasis added); Pleasant'El v. Oil Recovery Co., 148 F.3d 1300,
1302 (llth Cir. 1998) (“wherein the constitutionality of any Act of Congress
affecting the public interest is drawn in question, the court shall certify such
fact to the Attorney General.”).
Both courts failed to follow the statutory requirements for due process
in constitutional challenge to federal statute proceedings under the authority
of Wallach, Merill, and Pleasant'El and intentionally committed malfeasance,
displaying extreme bias against Petitioner.
IV.
The in forma pauperis statute, 28 U.S.C § 1915 is
“DEMONSTRABLY” unconstitutional in part, on its face and as applied to
Petitioner.
On its face § 1915(e) is unconstitutional because it considers factors
that are not germane to the eligibility requirements set out in § 1915(a) and
fails to consider important factors that are germane to the statutory purpose,
and constitutes, as a matter of law, a subterfuge to perpetrate a fraud, avoid
personal liability under 42 U.S.C. § 1983 or to evade consideration of a
federal issue and the IFP requirements under § 1915(a), which are: (l)
process issued and served; (2) notice and hearing of any motion thereafter
made by defendant or the court to dismiss the complaint and the grounds
therefor, Potter v. McCall, 433 F.2d 1087 (9th Cir. 1970); Harmon v. Superior
Court of California, 307 F.2d 796; and (3) proceeding to final judgment
against the defendant. In re Marriage ofReese, 73 Cal.App.3d 120, 125 (1977)

21

(quoting Boddie v. Connecticut, 401 U.S. 371 (1971)).
Cal. Gov. Code, § 68632, subd. (a)(4), protects the same right and does
not consider all of the factors detailed in § 1915(e). Furthermore, “[t]he
purpose of § 1915 is to provide an entre, not a barrier, to the indigent seeking
relief in the federal court.” Souder v. McGuire, 516 F.2d 820, 823 (3rd Cir.
1975); Jones v. Zimmerman, 752 F.2d 76, 79 (3rd Cir. 1985). In fact, § 1915(e)
is at odds with the very purpose of § 1915(a) because it creates a barrier to
indigent seeking relief in the federal court contrary to the purpose of the IFP
statute under Jones and Souder. § 1915(e) creates a barrier precluding access
all together that impair an indigent’s ability to enter the door of the
courthouse in pursuit of legitimate grievances.
The filing fee requirements are a barrier to indigent accessing the
courts because he cannot afford to pay for the filing fee. Even though the case
is palpably meritorious, the indigent is required to pay the filing fee. § 1915(e)
permits judicial officers to “automatically” dismiss the indigent’s meritorious
complaint for the purpose of imposing the filing fee. § 1915(e) codifies judicial
absolutism, immunity, or fraud as a legitimate tactic to dismiss the indigent’s
legitimate claims and cheat or defraud him of his property. Indigents’
meritorious legal claims are dismissed as frivolous or failure to state a claim.
§ 1915(e) prohibits indigents from accessing the courts to protect their
rights. Indigents are required to pay to redress meritorious legal claims. §
1915(e) prevents all indigents from accessing courts. § 1915(e)

22

precludes

indigents from enjoying IFP status. § 1915(e) is thus constitutionally infirm
as it operates to cause a First Amendment violation.
(l)

Violation of First Amendment Right to Proceed In Forma
Pauperis

§ 1915(e) violates Petitioner’s First Amendment right to commence or
litigate a meritorious civil action, suit, appeal, or proceeding in the manner of
pauper IFP because it hinders his efforts to pursue his legal claims. Indigent
Petitioner is seeking vindication of his fundamental rights. Civil rights
actions directly protect an American Citizen’s most valued rights. See Bounds
v. Smith, 430 U.S. 817, 827 (1977). Civil rights actions under 42 U.S.C. §
1983 vindicate basic constitutional rights.
Petitioner’s “COMPLAINT” was brought pursuant to § 1983 and
alleged violations of his fundamental constitutional rights under the First,
Ninth, Thirteenth, and Fourteenth Amendments of the Constitution of the
United States of America. Petitioner contends that, based on United States
Constitution, statutes, and court rules, he has a life, liberty, or property
interest in his civil proceedings, and by denying him equal access to the
courts and fair hearing of his claims, the Respondents have deprived him due
process.
The Respondents’ actions deprived Petitioner of access to the courts
and the possession and use of monies received through litigation of his
respective personal injury causes of action. Those causes of action, and funds
collected upon their liquidation are constitutionally protected interest.
23

United States of America’s Constitution, statutes and court rules give
rise to a life, liberty, or property interest that is entitled to procedural due
process protection. Procedural due process is a fundamental right. Petitioner
is seeking vindication of a fundamental constitutional right through a § 1983
action, and he has alleged the correct type of legal claim for a prima facie
First Amendment violation within the meaning of Bounds v. Smith.
Furthermore, the government’s enforcement of § 1915(e) provisions,
would deny Petitioner IFP status in the instant proceeding and would
effectively bar him from pursuing his meritorious legal claims on certiorari.
Petitioner does not have the money necessary to prepay the filing fee.
Petitioner is not employed, and he has no income. Petitioner has no money.
Petitioner has no financial source of funds for him to pay any fee for filing
cases in this court or elsewhere. Money is non-existent for all practical
purposes. § 1915(e) prohibits Petitioner from proceeding IFP and totally
denies him access to court in violation of his Frist Amendment right of access
to court.
Denying IFP status prevents indigents from accessing the courts
because they are required to pay the filing fee in order for the courts to
exercise jurisdiction over their valid constitutional claims. Indigents have no
money, and there is no guarantee that they will have income. § 1915(e)
infringes on the indigent’s right of access to the courts because he cannot
pursue his claim in court. Court fees must be waived because they prevent

24

litigants from vindicating basic fundamental rights. The First Amendment
right to court access provides the means for ensuring that access rather than
the ends in themselves. The IFP status is a means for ensuring that an
indigent litigant is guaranteed First Amendment right of court access, and in
Petitioner’s action or proceeding, it is constitutionally required. The First
Amendment right of access to the courts requires that an indigent litigant be
given IFP status.
§ 1915(e) does not allow indigent litigants to file a civil action, appeal.
or proceeding and proceed to judgement against the defendants-appellants*
respondents without the payment of court fees. Indigent litigants cannot be
denied a waiver of court fees. § 1915(e) prevents an indigent from filing civil
actions, appeals, or writs, and enjoying IFP status.
Significantly, § 1915(e) burdens Petitioner’s access to the courts
because the underlying lawsuit implicates a fundamental interest requiring a
waiver of filing fees. Petitioner’s right to access the courts has been disturbed
in that he is being barred from bringing his present § 1983 claim in federal
court as indigent litigant to litigate his federal constitutional causes of action
in the manner of a pauper IFP.
(2)

Violation of Fifth Amendment Right to Notice or a
Hearing

§ 1915(e) violates Petitioner’s Fifth Amendment right to notice or a
hearing because it denies him an opportunity for hearing. A hearing without
notice is not a hearing. The failure to provide notice circumvented Petitioner’s
25

Fifth Amendment right to be present, and to present evidence at hearing at
which the IFP status is at issue.
“Parties whose rights are to be affected are entitled to be heard; and in
order that they may enjoy that right they must first be notified.” Fuentes v.
Shevin, 407 U.S. 67, 80 (1971). It is improper to deny an IFP motion without
a hearing based on the judicial officer’s ex cathedra determination. See Cruz
v. Superior Court, 120 Cal.App. 175, 189 (2004). § 1915(e) permits the district
judge to determine case without hearing or to conduct secret, one-sided
determinations of facts decisive of rights.
“Due process of law does not mean according to the whim, caprice, or
will of a judge,' it means according to law. It shuts out all interference not
according to established principles of justice, one of them being the right and
opportunity for a hearing. ... Judicial absolutism is not part of the American
way of life. The odious doctrine that the ends justifies the means does not
prevail in our system for the administration of justice. The power vested in a
judge is to hear and determine, not to determine without hearing.” In re
Buchman, 123 Cal.App.2d 546, 560 (1954).
As a matter of law, § 1915(a) requires that the indigent be accorded a
hearing in which he may be heard, and where he may defend, enforce, and
protect his personal rights. See e.g. Spears v. McCotter, 766 F.2d 179, 180
(5th Cir. 1985) (“His testimony before the magistrate judge.”); Cay v. Estelle,
789 F.2d 318, 320 (5th Cir. 1986) (“An evidentiary hearing was held.”);

26

Coppedge v. United States, 369 U.S. 438, 452 (1962) (“We heard oral
argument.”). “[T]he judge’s feeling that the case is probably frivolous does not
justify bypassing that right. [Indigent] is entitled ... to be heard.” Harmon v.
Superior Court, 307 F.2d at 798.
The purpose of the hearing is to make a record to protect the pro se
indigent and to enable the court to make an informed decision regarding the
merit of the action by reference to the reality of the situation rather than by
speculating as to the nature of the claim. See Cay v. Estelle, 789 F.2d at 323.
As applied, § 1915(e) is constitutionally invalid as it deprives the indigent
litigant of his Fifth Amendment right to a hearing. The Fifth Amendment
right to a meaningful opportunity to be heard must be protected against
denial by § 1915(e) as it operates to destroy it for indigents. See e.g. Boddie v.
Connecticut, 401 U.S. 371, 379-80 (1971).
(3)

Violation of Fifth Amendment Right to be Free from
Fraud

§ 1915(e) violates Petitioner’s Fifth Amendment right to be free from
fraud by any person exercising the authority of the United States of America.
Boyce’s Executors v. Grundy, 28 U.S. 210, 220 (1830) (“the law ... abhors
fraud.”). Fraus legibus invisissima, “Fraud is most hateful to law.” § 1915(e)
legalizes fraud permitting judicial officers to freely and openly practice fraud
and intentionally, repeatedly, and systematically file false statements,
writings, or documents in the courts to defraud or cheat the indigent of his
property, or to obtain judgment of dismissal of his meritorious case. See e.g.
27

Sanchez v. California, Civil Action No. 2:i8-cv-06107-R (AFM) (twentyone
(21) false statements filed in the district court), Appeal No. 18-56153 (9th Cir.
2018) (two (2) false statements filed in the court of appeals); Sanchez v. Real,
No. 2:19-cv06015'MWF-RAO (eleven false statements filed in the district
court), Appeal No. 19-56097 (two false statements filed the court of appeals).
The record shows that district court judge Otis D. Wright, II and
magistrate judge Alexander F. MacKinnon filed orders in the district court
with intentionally false statements of fact and law.5 On the other hand, the

5 In the Denial-Dismissal Order filed 11/15/2019 and entered 12 days later on
11/27/2019, (Doc. No. 17), magistrate judge Alexander F. MacKinnon falsely stated: (l) that
the “District Court lacks jurisdiction,” and (2) that “PLAINTIFF ... Fails to state a federal
claim on which relief may be granted.” Denial-Dismissal Order, cover-page CV-73.
In the Denial-Dismissal Order filed 11/15/2019 and entered 12 days later on
11/27/2019, (Doc. No. 17), district judge Otis D. Wright, II falsely stated: (l) that “Once again,
plaintiffs Complaint lacks an arguable basis in either fact or law to raise a federal civil
rights claim.” id., at 2, lines 18-19; (2) that “again, plaintiffs factual allegations fall far short
of raising a purported right to relief on any federal claim.” id., at 2, lines 20-22; (3) that “the
Court does not have jurisdiction over plaintiffs claims against California.” id., at 3, lines 1718; (4) that “employees of a private university are not acting under color of state law.” id., at
4, line 8! (5) that “A local government entity such as the County Dmay not be sued under §
1983 for an injury inflicted solely by its employees or agents.” id., at 4, lines 17-18; (6) that
“the Complaint fails to set forth any factual allegations that a specific policy or custom
promulgated by the County was the ‘actionable cause’ of a specific constitutional violation.”
id., at 4, lines 23-25; (7) that “Plaintiffs complaint fails to state any factual allegations.” id.,
at 5, lines 3-4; (8) that “neither the Fourteenth Amendment nor any other part of the United
States Constitution protects a ‘fundamental right to health care.” id., at 5, lines 12-13! (9)
that “Plaintiffs Complaint alleges nothing that constitutes racketeering activity.” id., at 6,
lines 6-7; (10) that “Plaintiffs ... First Amendment claim for ‘right to privacy of mind’ is
frivolous.” id., at 6, lines 8-9; (ll) that plaintiffs factual allegations lack an arguable basis in
fact or law to assert a federal civil rights claim against the named defendants.” id., at 6, lines
13-14; (12) that “the Court may dismiss a case summarily.” id., at 6, line 19; (13) that
“plaintiffs factual allegations here fail to plausibly allege that any named defendant acted
under color of state law to deprive him of a right guaranteed under the United States
Constitution or a federal statute.” id., at 7, lines 3-4; (14) that “the Court lacks subject matter
jurisdiction over the claims in this action.” id., at 7, line 5.
In the Denial Order filed 11/26/2019 and entered 1 day later on 11/27/2019, (Doc. No.
18), district judge Otis D. Wright, II falsely stated: (l) that “Plaintiff filed ... Complaint... 50
pages of exhibits of miscellaneous paperwork.” id., at 1, line 20; (2) that “Sanchez does not
state the source of the bias.” id., at 2, lines 8-9! (3) that “Sanchez brings his claim under one
28

court of appeals circuit judges William C. Canby Jr., Ronald M. Gould, and
Paul J. Watford filed two (2) false statements in the court of appeals to
defraud or cheat Petitioner of his property or to obtain judgment of dismissal
of his meritorious appeal.6
There is ample evidence in the record showing that United States
judges Alexander F. MacKinnon, Otis D. Wright, II, William C. Canby Jr.,
Ronald M. Gould, and Paul J. Watford engaged in a calculated course of
egregious misconduct involving dishonesty and subterfuge designed to
perpetrate a fraud and avoid personal liability under § 1983 in violation of
fundamental maxims of common law, Fraus est jus nunquam cohabitant,
of them.” id., at 3, line l; (4) that “the motion is woefully lacking in the area of ‘facts.’ ” id., at
3, line 18; (5) that “On the Merits, There is No Basis For Recusal.” id., at 3, lines 24-25; (6)
that “Petitioner has not even attempted to articulate the basis for his belief that Judge
MacKinnon harbors a bias against him.” id., at 4, lines 13-15; (7) that “a request for
disqualification of a judge must rest upon the judge having acquired extrajudicial
information which has caused the judge to disfavor the movant.” id., at 4, lines 19-22; (8) that
“The omitted language demonstrates that the decision holds just the opposite of what
Plaintiff argues in his motion.” id., at 7, linesl6-18; (9) that “This is nothing than a deliberate
and bad-faith attempt to mislead the court.” id., at 8, linesl6-18; (10) that “Sanchez
deliberately excised words from passages lifted from the decision so that it appeared to state
the rule that one who receives an unfavorable ruling may argue that the court is obviously
biased.” id., at 8, lines 25-26, at 9, line l; (ll) that “this was not done in good faith.” id., at 9,
line 5; (12) that “it was done for improper purpose.” id., at 9, lines 10-11.
In the Denial Order filed and entered the same day on 12/4/2019, (Doc. No. 20),
district judge Otis D. Wright, II falsely stated: (l) that “Plaintiff filed ... Complaint ... 50
pages of exhibits of various miscellaneous paperwork.” id., at 1, lines 17-19; (2) that “there is
no federal court subject matter jurisdiction.” id., at 2, line 24; (3) that “The case ... is outside
the jurisdiction of federal courts.” id., at 3, line 2; (4) that “there is no case.” id., at 3, lines 7-8;
(5) “The docket does not reflect an order from Judge Walter on October 28, 2019.” id., at 3
lines 9-11.
Indeed, district judge Otis D. Wright, II practiced fraud and injected twenty-nine
false statements of fact and law in Petitioner’s case in violation of his absolute right to be
free from fraud. District judge Otis D. Wright, II is “a fraudster [and] sorcerer.” BehariKunj
SahkariAvs Samiti v. State Of U.P. & Ors, 11 S.C.R. 337, 350-51 (2000).
6 The circuit judges falsely stated: (l) that “this appeal is frivolous,” and that “case ...
is ... frivolous.”
29

“Fraud and justice never dwell together.” Fraus est celare fraudem, “It is a
fraud to conceal a fraud.” Qui fraudem fit ffustra agit, “He who commits
fraud, acts in vain.”
§ 1915(e) is obvious subterfuge to evade consideration of a § 1983 claim
and the requirements of § 1915(a), and Fed.R.Civ.P. 12(b), and to avoid
personal liability for deprivation of constitutional protected rights under color
or pretext of state law. Lex injusta non est lex, “An unjust law is not law.”
Evidently “the district court, [ignored] both the nature of [Petitioner’s]
right to judicial process for the recovery of his property and the potential
seriousness of the burden the [dismissal of meritorious legal claims] places on
that right. The defendants seem to interpret the provision of a judicial
process for the recovery of property a favor that the government grants its
citizens, rather than a right to which they are entitled. In other words, the
[United States judges have] free rein to decide if and when it will allow
citizens to obtain judicial orders to recover their property.
This view is contrary to both the avowed principles and the spirit of
the American polity. It is a prime tenet of our American political philosophy
that government has a responsibility to protect the lives, liberties, and
property of its citizens, and part of that responsibility includes the provision
of courts where individual citizens can seek the vindication of their rights.7

7 The legislative or supreme authority cannot assume to itself a power to rule by
extemporary, arbitrary decrees, but is bound to dispense justice and to decide the rights of
the subject by promulgated, standing laws, and known authorized judges. J. Locke, The
Second Treatise of Civil Government, Chap. X, § 136 (T. Cook ed. 1947) (6th ed. 1764). This
30

[Petitioner] has the right to go to court to recover his property; it is not a
privilege that can be granted or denied [to] him at the government’s whim. It
is this right to vindicate one’s rights in court that is the heart of the
constitutional right to due process of law. ...
This principle is expressed in one of the original sources of the theory
of constitutionalism, the Magna Carta, Section 40 of that document states
that among the duties government owes to its subjects is that ‘To no one will
we sell, to no one will we refuse or delay, right or justice.’ This principle is
also expressed in the Supreme Court’s holding that the due process clause ...
prevents [government] from ‘denying potential litigants use of established
adjudicatory procedures, when such an action would be ‘the equivalent of
denying them an opportunity to be heard upon their claimed rights.’
Thus, any [judge’s] attempt to limit the right of individuals to go to
court to have their rights vindicated is a matter of serious import. ... [I]t is
doubtful that it could simply choose to close [the courts to an indigent on the
ground of nonpayment of a fee], forestalling all attempts by citizens to
enforce their legal rights. There is a plausible argument that [§ 1915(e)] is
not a reasonable regulation of the judicial system but is rather a deprivation

principle was expressed in our Declaration of Independence, which states that, in order to
secure the unalienable rights of all citizens, among which are life, liberty, and the pursuit of
happiness, “Governments are instituted among Men” and “whenever any Form of
Government becomes destructive of these ends, it is the Right of the People to alter or
abolish it . . .” The necessity of judicial process for the establishment of just government is
demonstrated by the inclusion among the “long train of abuses” compelling the separation of
the American Colonies from Great Britain of the contention that the King of Great Britain
“obstructed the Administration of Justice, by refusing his Assent to Laws for establishing
Judiciary Powers.”
31

of the putative litigant’s right to due process. This argument applies with
particular force to this case because the clerk of the court allegedly refused to
process [Petitioner’s] request for judicial action ... making the alleged
deprivation of due process even more inexcusable. ... [T]his [dismissive
action] ... excluded only a particular class of cases from the courts, a class
brought by an unpopular group in our society, [indigents]. If [Petitioner], who
is [indigent], had been excluded from the courts because he is [indigent],
there would be no doubt that his rights to equal protection and due process
under the [fifth] amendment were violated. These rights are not relinquished
because he is [an indigent].” Morrison v. Lipscomb, 877 F.2d 463, 467-68 (6th
Cir. 1989) (citations omitted).
(4)

Violation of Fifth Amendment Right to be Free from the
Practice of Law by United States Officers

§ 1915(e) violates Petitioner’s Fifth Amendment right to be free from
the practice of law by United States officers. See 28 U.S.C. §§ 454, 955;
United States v. Bosch, 951 F.2d 1546, 1551 n. 1 (9th Cir. 1991) (“outlawing
the practice of law by judges, magistrates, and court clerks respectively.”);
Audett v. United States, 265 F.2d 837, 840 (9th Cir. 1959) (“Congress ...
prohibit the practice of law by ... judges of the courts ... or court clerks.”).
§ 1915(e) permits judicial officers to figuratively speaking, step down
from the bench and assume the role of advocate for the defendants in the
action. And in that role to exceed the proper bounds of advocacy and file sua
sponte order dismissing the case. “[I]t is not the proper function of the district
32

court to assume the role of advocate for ... litigant.” De Young v. State, 890
F.Supp. 949, 951 (D.Kan. 1995); Paulson v. Evander, 633 So.2d 540 (1994)
(“the judge on his own amended and redrafted pleadings.”); In re Inquiry
Concerning a Judge, Gridley, 417 So.2d 950 (1982) (“Judge Gridley, with full
knowledge that he had no jurisdiction to do so, entered a sua sponte order.”)
§ 1915(e) authorizes judicial officers to prepare, draft, and file a motion
to dismiss for the defendants for either “failure to state a claim” or
“immunity” and enter a sua sponte order dismissing the indigent’s case.
Motions to dismiss of that nature are appropriate before the district court by
the defendants and not the judge, magistrate, or court clerk. See e.g.
Gonzalez v. City of Chicago, 888 F.Supp. 887 (N.D.I11 1995) (Attorney for the
defendants Susan S. Sher and several other attorneys filed motion to dismiss);
see also Jones v. Clinton, 974 F. Supp. 712 (E.D. Ark. 1997) (motion to
dismiss filed by attorney for the defendant).
“Where a public official has or may have a defense based on ...
immunity, the burden is on the official to raise the defense and establish his
entitlement to immunity. ... [Dismissal of the complaint pursuant to 28
U.S.C. § 1915 is not appropriate in such cases.” Henriksen v. Bentley, 644
F.2d at 856 (quoting Gomez v. Toledo, 446 U.S. 635 (1980)). “[A] federal court
need not address the issue of ... immunity if neither party brings it to the
attention of the court.” Baltimore County v. Hechinger Liquidation Trust, 335

33

F.3d 243, 249 (3rd Cir. 2003) (quoting Wisconsin Dep’t. of Corrections v.
Schacht, 524 U.S. 381, 389 (1998)).
§ 1915(e) allows judicial officers to be players rather than umpires and
file motions to dismiss for the defendants and order dismissal. “Judges should
be umpires rather than players.” Rose v. Superior Court, 81 Cal.App.4th 564,
570 (2000). § 1915(e) turns umpires into players for all intent and purposes.
(5)

Violation of Fifth Amendment Right not to be Tried before
a Judge Who is Biased

§ 1915(e) violates Petitioner’s Fifth Amendment right not to be tried
before a judge who is biased against him. In re Richard W., 91 Cal.App.3d
960, 967 (1979) (“A party in ... all ... proceedings is entitled to a trial by a
judge who is detached, fair and impartial and has a constitutional right not to
be tried before a judge who is biased against him.”); United States v. Sciuto,
531 F.2d 842, 845 (7th Cir. 1976) (“It has long been recognized that freedom
of the tribunal from bias or prejudice is an essential element of due process.”);
United States v. Thompson, 483 F.2d 527, 529 (3rd Cir. 1973) (Plaintiff “is
entitled to trial before a judge who is not biased against him at any point of
the trial.”); In re Murchison, 349 U.S. 133, 136 (1955) (“A fair trial in a fair
tribunal is a basic requirement of due process. Fairness of course requires
absence of actual bias in the trial of cases.”).
§ 1915(e) permits a judge who has a personal bias against the party
because he is indigent and self-represented to sit and act in his case and
make judicial rulings that display a deep-seated favoritism towards
34

defendants and antagonism toward indigent party that is self-represented.
“Mias exists. ... [T]he courts ... are biased against the self-represented. ...
The lawyer bias against the self-represented. ... [T]he bias against the selfrepresented that pervades [the] courts.” Bias Against Pro Per Litigants,' What
It Is. How to Stop It., by Stephen Elias (April 4, 1997) Nolo Press.
§ 1915(e) permits a district judge to issue a ruling on his own motion
based entirely on personal knowledge of the defendants creating the
appearance of favoritism. Ann. Rept. (2003) Advisory Letter 12, p. 27.
Additionally or alternatively, § 1915(e) allows a district judge to go forward
with a motion hearing in the absence of self-represented litigant creating the
appearance of antagonism. Ann. Rept. (2005) Advisory Letter 1, p. 26.
(6)

Violation of Fifth Amendment Right to be Free from
Extortion Under Color of Official Right

§ 1915(e) violates Petitioner’s Fifth Amendment right to be free from
attempted extortion under color of official right. See 18 U.S.C. § 1951. §
1915(e) authorizes judicial officers to demand, charge, or extract money
payment from the indigent litigant on the false ground that it is due to him
as a court fee, in that the judicial officers on the false ground that the lawsuit
or appeal is frivolous or that indigent’s conduct warrants sanctions attempted
to extract money from him for court fees. See e.g. McCormick v. United States,
500 U.S. 257, 279 (1991) (“[Elxtortion ‘under color of official right,’ and ... the
defendant, a justice of the peace, had extracted a payment from a litigant on
the false ground that it was due him as a court fee.”)
35

(7)

Violation of Fifth Amendment Right to Equal Protection

§ 1915(e) violates Petitioner’s Fifth Amendment right to sue, be a party,
give evidence, and to the full and equal benefit of all laws and proceedings for
the security of his person and property because it permits judicial officers to
terminate any and all of the indigent’s constitutional and statutory rights
without notice, hearing, and opportunity to appeal by permitting dismissal of
his meritorious suit, action, appeal or proceeding on the basis of indigence.
Instead of being subjected to the same rules as non-indigents, indigents who
would otherwise qualify for IFP status must pay the filing fees. Access to the
court is a fundamental right that remains with an individual even after
impoverishment. Petitioner’s claim that he suffered a violation of his health
freedom is precisely the type of fundamental rights claim for which the
federal court vigilantly guarded an indigent’s access to the courts.
§ 1915(e) affects a fundamental right. § 1915(e) stops only indigents
from filing civil cases. Those litigants who have money to pay for filing fees
can file many frivolous lawsuits as they can afford. Under § 1915(e) indigents
eventually have to pay the filing fee. Stopping all lawsuits under § 1915(e) by
indigents would bar important and arguably meritorious constitutional
claims. § 1915(e) does nothing to reduce the frivolous filings of non-indigent
litigants; they may file as many frivolous filings as they wish under § 1915(e).
The provision is too broad in that it may bar non-frivolous actions of indigent
litigants. If an indigent files a meritorious IFP action or appeal and all are

36

dismissed as frivolous, then he is barred without regard to the merits of his
case, unless he pays the filing fee. § 1915(e) makes no provision for the merits
of an indigent litigant’s filings; it does not even grant courts the discretion to
hear claims that are clearly meritorious. § 1915(e) is unconstitutional under
the equal protection component of the Fifth Amendment’s Due Process
Clause. See e.g. Ayers v. Norris, 43 F.Supp.2d 1039 (E.D.Ark. 1999).
(8)

Violation of Seventh Amendment Right to Trial by Jury

§ 1915(e) violates Petitioner’s Seventh Amendment right to trial by
jury because it denies him the benefit of a trial of the fact issues before a jury.
§ 1915(e) nullifies the Seventh Amendment right to trial by jury in civil suit
amounting to tyranny. See Declaration of Independence (US 1776), par. 20
(“For depriving us in many cases, of the benefits of trial by jury.”). § 1915(e)
“frivolousness determination, frequently made sua sponte before the
defendant has even been asked to file an answer, cannot serve as a
factfinding process for the resolution of disputed facts.” Denton v. Hernandez,
504 U.S. at 32.
(9)

Violation of Ninth Amendment Right to the Truth In
Evidence

§ 1915(e) violates Petitioner’s Ninth Amendment right to the truth in
evidence because it excludes any and all relevant oral and documentary
evidence in civil proceedings. § 1915(e) prohibits judicial officers from
considering the indigent’s evidence proving his claims.

37

(10)

Violation of Eleventh Amendment Right to Commence a
Suit for Injunctive Relief against One of the United States

§ 1915(e) violates Petitioner’s Eleventh Amendment right to commence
a suit for injunctive relief against the State of California to prevent the
enforcement of a State policy on the ground of its unconstitutionality under
Ex parte Young, 209 U.S. 123 (1908).
(11)

Violation of Thirteenth Amendment Right to be Free from
Slavery or Involuntary Servitude

§ 1915(e) violates Petitioner’s Thirteenth Amendment right to be free
from slavery or involuntary servitude. Misera est servitus ubi just est vagum
aot incertum, “It is misery slavery where the law is vague or uncertain.” The
statutory language in § 1915(e)(2)(B), to-wit: “frivolous,” “fails to state a claim
on which relief may be granted,” and “immunity” is unconstitutionally vague
and ambiguous creating conflict, confusion, and misunderstanding designed
to terminate the indigent’s constitutional and statutory rights without notice,
hearing, and opportunity to appeal by permitting dismissal on arbitrary or
irrational basis. In fact, § 1915(e) does not define with precision and clarity
the statutory language permitting judicial officers to usurp power to dismiss
the indigent’s meritorious legal claims for want of jurisdiction, immunity, or
frivolousness amounting to misery slavery, as a matter of fundamental
maxim of law. See e.g. Scott v. Sandford, 60 U.S. 393 (1857).
The language in § 1915(e) authorizes judicial officers to dismiss the
indigent’s meritorious “COMPLAINT” on the ground of “lack of subject-

38

matter jurisdiction,” a ground which is not articulated or detailed in § 1915(e)
or on the ground of “fails to state a claim on which relief may be granted,” a
ground which is articulated or detailed in Fed. R. Civ. P. 12(b)(6), or on the
ground of “immune from such relief,” a ground which includes “official
immunity,” “sovereign immunity,” “total immunity,” “absolute immunity,”
“legislative immunity,” “litigation immunity,” “judicial immunity,” “quasi­
judicial immunity,” “qualified immunity,” “personal immunity,” “good-faith
immunity,” “common-law immunity,” and “judge-made immunity,” or on the
ground of “frivolous” allowing judicial officers to apply the incorrect legal
standard when addressing the question of frivolous, jurisdiction, or immunity
for the purpose of slavery.
(12)

Violation of Article III Right to Hearing on the Merits of a
Claim Over which the Court has Jurisdiction

§ 1915(e) violates U.S. CONST, art. Ill, § 2 because it strips or
withdraws the United States courts of jurisdiction over those cases that fall
under 28 U.S.C. §§ 1391, 1331, 1343(a), and 1367(a). § 1915(e) limits the
jurisdiction of the United States courts.
Federal courts are vested with a “virtually unflagging obligation” to
exercise the jurisdiction given them and have no right to decline the exercise
of that jurisdiction. See Ayers v. Norris, 43 F.Supp.2d 1039.

§ 1915(e)

permits judicial officers to decline the exercise of jurisdiction which is
explicitly given. The “procedural” statute § 1915 for the granting or denying
of IFP is not jurisdictional. Cf. Kontrick v. Ryan, 540 U.S. 443, 454 (2004). §
39

1915(e) delineates what cases district courts are competent to adjudicate in
violation of Petitioner’s Article III “right to a hearing on the merits of a claim
over which the court has jurisdiction.” Harmon v. Superior Court of
California, 307 F.2d at 798.
CONCLUSION
Petitioner respectfully requests that this Court grant the writ of
certiorari and. order full briefing and argument on the merits of this case.
Date; October 31, 2020
Respectfully submitted,

IMMANUEL F.
Petitioner in pro se

40

